No.

IN THE SUPREME COURT OF THE UNITED STATES

DORA L. ADKINS,
Petitioner,
v.
DULLES HOTEL CORPORATION,
Respondent.

PETITION FOR WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS
FOR THE FOURTH CIRCUIT

Petitioner, Dora L. Adkins certifies as follows: As required by Supreme Court
Rule 33.1(h), I certify that the document contains 4,414 words, excluding the parts
of the document that are exempted by Supreme Court Rule 33.1(d). I declare under
penalty of perjury that the foregoing is true and correct. Respectfully submitted this
7th day of January, 2021.
23

Respectfully submitted,

Dora L. Adkins
P.O. Box 3825
Merrifield, Virginia 22116
DoraAdkins7@aol.com

24

